No. 20-5672

 

INTHE
Supreme Court of the Anited States

DAVID KAREEM TURPIN,
Petitioner,

ve
UNITED STATES OF AMERICA,

Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Fourth Circuit
CERTIFICATE OF SERVICE

I, Jaclyn L. Tarlton, a member of the Bar of this Court, hereby certify that on
this 16 day of December, 2020, I have served the enclosed Reply to Brief in
Opposition on each party to the above proceeding or that party’s counsel, and on
every other person required to be served, by depositing an envelope containing the
above document in the United States mail, properly addressed to each of them and
with first-class postage prepaid. The name and address of those served are:

JEFFREY B. WALL

ACTING SOLICITOR GENERAL OF THE UNITED STATES

Room 5616

Department of Justice

950 Pennsylvania Avenue, N.W.

Washington, D.C. 20530-0001

Counsel for Respondent

I further certify that all parties required to be served have been served.
y an of th
JACLYN L, TARLTON
ASSISTANT FEDERAL PUBLIC DEFENDER
Counsel of Record
EASTERN DISTRICT OF NORTH CAROLINA
150 Fayetteville St.
Suite 450
Raleigh, N.C. 27601
(919) 856-4236
jackie tarlton@fd.org

Counsel for Petitioner
